       IM EXEMPTIVE APPLICATION
             PROCESSING
                        EXECUTIVE SUMMARY
We reviewed the exemptive application process in the Division of Investment
Management’s (IM) Office of Investment Company Regulation (OICR). Our
objectives were to determine whether the process was timely and to recommend
improvements.
The timeliness of the process can be improved. Of 83 non-draft exemptive
applications received in FY 2005, only 13 received initial comments within IM’s
guidelines of 45 days. However, OICR generally issued initial comments on
deregistrations timely. Of 158 deregistrations received and for which comments
were issued in FY 2005, 143 (approximately 90%) received initial comments within
45 days.
We are recommending several steps to enhance timeliness. These include issuing
exemptive rules, filing applications electronically, and restricting or eliminating the
review of draft exemptive applications.
Other recommendations include: returning poorly prepared applications; developing
standard follow-up procedures; improving performance measures; and revising the
database for exemptive applications.


 OBJECTIVES, SCOPE AND METHODOLOGY
Our objectives were to determine whether the exemptive application process in the
Division of Investment Management’s Office of Investment Company Regulation
(OICR) was timely and to recommend improvements. We focused on OICR because
it processed approximately 94% (383 of 409) of the exemptive applications and
deregistrations under the Investment Company Act of 1940 (15 U.S.C. 80a-1 et seq.)
 (I/C Act or the Act) received by the Commission in fiscal year 2005.
We included in our review applications for deregistrations of investment companies
filed on Form N-8F because of their high volume (OICR received 287 in FY 2005).
Deregistrations did not require the extent of review provided exemptive applications
and were generally not reviewed by OICR staff attorneys.
We did not review the exemptive application processes in IM’s Office of Insurance
Products (OIP) and Office of Investment Adviser Regulation (OIAR). These offices
process a smaller number of exemptive applications than OICR, regarding insurance
products and investment advisers.



IM Exemptive Application Processing (Audit No. 408)                September 29, 2006
                                                                                        2

During the audit, we interviewed OICR and other IM staff, and reviewed
Commission rules, policies and procedures for exemptive application processing.
Also, we analyzed FY 2005 exemptive application documentation and data generated
by OICR’s Applications database and the Commission’s EDGAR (Electronic Data
Gathering, Analysis and Retrieval) system.
We generally selected our data samples on a judgment basis. Therefore, we cannot
statistically project our results to the universe of items from which we selected our
samples. However, we believe that the sampled items provided reasonable support
for our findings.
We conducted this performance audit between July 2005 and August 2006, in
accordance with generally accepted government auditing standards (GAGAS).
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence that provides a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.


                                Background
The I/C Act gives the Commission the authority to issue orders granting exemptions
from the I/C Act’s provisions. In particular, Section 6c of the I/C Act gives the
Commission the power to provide exemptions from any provision of the I/C Act or
any rule under the I/C Act, provided the exemption is in the public interest,
consistent with the protection of investors and consistent with the intended
purposes of the I/C Act (15 U.S.C. 80a-6(c)). This authority provides flexibility in
administering the I/C Act and helps the Commission achieve its strategic goal to
provide a flexible regulatory environment supportive of industry innovation and
competition.
Investment companies (applicants) must apply to the Commission to obtain
exemptive orders. Applicants must follow the requirements in Rule 0-2 (17 C.F.R.
270.0-2) under the I/C Act and the guidance in Investment Company Release No.
14492, issued in 1985 (Release No. 14492). Release No. 14492 also includes IM’s
policies for processing exemptive applications.
OICR is responsible for processing investment company exemptive applications.
OICR’s staff includes an assistant director and four branch chiefs. Each branch
consists of from three to five staff attorneys.
OICR classifies applications as either routine or novel. Routine applications request
exemptive relief that OICR granted in previous applications on the same terms and
conditions. OICR has already addressed the I/C Act issues related to routine
applications, and expects to take less time to process routine applications than to
process novel applications. Novel applications contain new I/C Act, policy or factual
issues on which the IM Director or the Commission may need to decide.
Consequently, OICR expects to take more time to process them.




IMExemptive Application Processing (Audit No. 408)             September 29, 2006
                                                                                      3

OICR also processes applications for investment company deregistrations, which are
filed electronically on Form N-8F. OICR considers these applications routine, and
expects to process them relatively quickly. After OICR issues the deregistration
order, the company is no longer a registered investment company.
OICR’s management holds weekly meetings to discuss and assign exemptive
applications to a branch chief and staff attorney. Staff attorneys may work with
more than one branch chief, depending on the exemptive applications they are
assigned.
The staff attorneys analyze the I/C Act issues presented in applications and prepare
comments to request corrections or additional information from applicants. The
staff attorneys then forward their comments on the applications to their branch
chiefs, who review the applications and comments and forward their input in turn to
the Assistant Director. After incorporating management’s input, the staff attorney
issues a comment letter to the applicant.
Release No. 14492 requires OICR to provide initial comments to applicants within
45 days. Generally, the applicant will amend the application or otherwise address
the comments. The applicant then has 60 days to respond to OICR’s comments,
after which OICR will suspend processing of the application (inactive status) until
the applicant responds.
Upon completing the review, OICR sends a summary notice of the application to the
Office of the Secretary for publication in the Federal Register. After the end of the
notice period (OICR generally provides 25 days), if the public did not ask for a
hearing (generally the case), and the Commission does not order a hearing, OICR
issues an exemptive order granting the application under delegated authority from
the Commission.
The number of pending exemptive applications, including deregistrations, declined
approximately 4% between the end of 2004 and the end of 2005, from 211 to 203.
The number of pending applications, excluding de-registrations, declined by
approximately 10%, from 177 in FY 2004 to 160 in FY 2005.



                              Audit Results
We found that OICR’s exemptive application process was not always timely. Of 83
non-draft exemptive applications received in FY 2005, only 13 (approximately 16%)
received initial comments within the 45 day timeliness goal under the Commission
guidelines in Release No. 14492.
 However, OICR generally issued initial comments on deregistrations timely. Of 158
deregistrations received and for which comments were issued in FY 2005, 143
(approximately 90%) received initial comments within 45 days.
We have a number of recommendations to improve timeliness. These include
issuing exemptive rules, filing applications electronically, and restricting or
eliminating the review of draft exemptive applications. We discuss these and other
recommendations below.




IMExemptive Application Processing (Audit No. 408)             September 29, 2006
                                                                                     4


Exemptive Rules
The Commission’s FY 2004-2009 strategic plan (page 39) included an initiative to
adopt exemptive rules in order to reduce the number of exemptive requests from
investment companies. Exemptive rules often codify the terms and conditions of
prior exemptions granted on a recurring basis by the Commission. Investment
companies may rely on exemptive rules instead of submitting exemptive
applications.
The Commission proposed two new exemptive rules in October 2003. One rule
regarded mutual fund investments in other mutual funds (fund of funds), and
investments of excess cash in money market funds (cash sweeps). The other rule
regarded entering or modifying advisory contracts with sub advisers without
shareholder approval (multimanager). The Commission adopted the final exemptive
rule regarding fund of funds and cash sweeps in June 2006 (Release Number IC-
27399). The multimanager rule is still pending.
Routine applications covered by the pending exemptive rules represented
unnecessary processing for OICR. At the end of FY 2005, approximately 24 fund of
funds, cash sweep and multimanager applications were pending (15% of the total
exemptive applications pending) that likely would have been unnecessary if the
proposed rules had been adopted sooner. Also, routine applications take resources
from novel applications that could promote regulatory flexibility and industry
innovation.
IM’s Office of Regulatory Policy (ORP) drafts I/C Act exemptive rules. ORP
indicated that it had limited resources for rulemaking (five staff attorneys, a branch
chief and an assistant director). Also, ORP had other rulemaking responsibilities.
       Recommendation A
       IM should set and monitor a deadline for submitting the multimanager
       exemptive rule to the Commission for consideration.
Electronic Filing
The Government Paperwork Elimination Act, or GPEA (P.L. 105-277, Title XVII,
October 21, 1998), requires Federal agencies to allow individuals and entities the
option to submit information to Federal agencies in electronic form to the extent
practicable. However, Rule 0-2 and the EDGAR rules still require that applicants
submit exemptive applications in paper.
Electronic filing of exemptive applications could improve timeliness of processing by
reducing the amount of manual processing. The Commission’s mailroom would not
have to manually stamp these applications and deliver them to the Office of Filings
and Information Services (OFIS). OFIS would not have to manually input data from
exemptive applications into EDGAR and deliver the applications to OICR. Also,
electronic filing would minimize physical handling of applications and reduce the
risk of delayed receipt and loss of applications.
In FY 2002, IM requested funding for an EDGAR requirements analysis for
electronic filing of exemptive applications. IM indicated that funding was not
provided because of other priorities.




IMExemptive Application Processing (Audit No. 408)             September 29, 2006
                                                                                      5


       Recommendation B
       IM should continue to seek electronic filing for exemptive applications and
       propose amendments to the applicable Commission rules to allow electronic
       filing of exemptive applications.
Draft Applications
Applicants may send draft exemptive applications to OICR to obtain preliminary
views on novel applications (e.g., related to exchange-traded funds). OICR received
13 draft exemptive applications in FY 2005.
Draft applications allowed applicants’ proposals to remain confidential during
OICR’s initial review. To further ensure confidentiality, applicants requested
confidential treatment for their draft applications.
IM’s policy in Release 14492 provides that IM will not review draft applications,
except in the “most extraordinary circumstances.” Also, reviewing draft applications
takes resources away from reviewing formally submitted applications.
IM is in the process of updating its policies and guidelines for the review of
exemptive applications. These guidelines should clarify IM’s requirement that
applicants justify their “extraordinary circumstances” when submitting draft
applications.
       Recommendation C
       IM should require applicants to justify their “extraordinary circumstances”
       for submitting draft applications.
Deficient Applications
According to Release No. 14492, exemptive applications should be adequately
detailed and justified. OICR implements this requirement by commenting on
applications and requesting amendments addressing relevant issues.
However, OICR did not have policies and procedures that prevented it from
spending unnecessary time reviewing “clearly deficient” applications. Release No.
14492 describes “clearly deficient” applications as those that did not comply with the
Commission’s procedural rules or that misstated or lacked adequate facts and
analysis. OICR issued extensive comments on these applications or requested that
applicants withdraw them.
We reviewed a judgment sample of 15 comment letters relating to 15 of 154
exemptive applications (excluding deregistrations) filed in FYs 2004 and 2005. Five
comment letters requested substantial rewording of the investor protection
conditions in the applications. Another comment letter requested substantial re-
wording of almost the entire application. These types of applications, while not the
majority, occupy OICR resources that could have been applied to better prepared
applications.
OICR properly assisted many applicants in refining their requests for exemptive
relief. However, OICR should have the option to return “clearly deficient”
applications rather than investing its limited resources in processing them.




IMExemptive Application Processing (Audit No. 408)             September 29, 2006
                                                                                     6

OICR is in the process of updating its policies and guidelines for the review of
exemptive applications. These guidelines should include policies and procedures for
returning “clearly deficient” applications to the applicant.

       Recommendation D
       IM should develop policies and procedures to identify “clearly deficient”
       applications and to return them to the applicant without a detailed review.
Follow-Up
Some OICR attorneys, on a case-by-case basis, will contact applicants for updates
during processing of an application or after the 60 day deadline for responding to
comment letters has passed without a response. However, OICR does not have a
standard procedure for contacting all applicants.
Follow-up procedures would help OICR consistently and timely identify issues
during its review (e.g., abandoned applications, changes in contact persons,
arrangements for extensions of time for responses to comments).
OICR is in the process of updating its policies and guidelines for the review of
exemptive applications. These guidelines should include policies and procedures for
timely follow-up.
       Recommendation E
       OICR should develop and implement standard policies and procedures for
       contacting the applicant during its review of exemptive applications.
Performance Measures

Goals
The Office of Management and Budget (OMB) requires agencies to develop
performance measures that provide information on progress toward its goals. The
Commission’s FY 2004-2009 strategic plan includes goals to provide regulatory
flexibility and support industry innovation. OICR’s exemptive application process
supports these Commission goals, but OICR had not yet developed outcome goals for
the process. Outcome goals would help OICR describe how its activities and
achievements supported the Commission’s goals.
OICR also needs to develop timeliness goals for its novel exemptive applications.
Release No. 14492 included a timeliness goal of 45 days to initial comments for
exemptive applications, but did not distinguish between routine and novel
applications. Release No. 14492 recognized that novel applications would take
longer to process. Separate timeliness goals for novel applications would enhance
performance measurement and reporting.
We recognize that OICR might not always meet its timeliness goals, particularly for
routine applications that were poorly prepared or novel applications with complex
I/C Act issues. However, the information provided by tracking these goals would
help OICR to identify and analyze trends and the causes of delays.




IMExemptive Application Processing (Audit No. 408)            September 29, 2006
                                                                                      7

OICR also has not developed goals for the interim stages of exemptive application
processing (e.g., the number of days for staff and management review). Such
measures would be useful to OICR.
       Recommendation F
       OICR should develop, track, and report outcome goals for its exemptive
       application process and timeliness goals for its novel exemptive applications.
       If needed, OICR should obtain appropriate guidance or training in developing
       performance measures.

Closed Applications
For reporting purposes, OICR counted as closed those exemptive applications in
inactive status or those for which it had published Federal Register notices.
However, inactive applications may be reactivated for further processing if the
applicant submits an amended application in response to OICR’s comments. A
Federal Register notice is published before an exemptive order is issued, and the
notice could result in a Commission hearing (although these hearings are rare).
Consequently, exemptive applications should only be considered closed when OICR
issues an exemptive order or the applicant formally withdraws its exemptive
application.

       Recommendation G
       OICR should only count exemptive applications as closed for reporting
       purposes when it issues an exemptive order or the applicant formally
       withdraws its application.
Application Information on Website
The Commission’s website includes links to I/C Act laws and rules, staff guidance
and studies, investor information and no-action letters. However, the site does not
provide information related to exemptive applications such as Release No. 14492 or
Federal Register notices of applications and exemptive orders.
This information is available from a number of other sources (e.g., the “SEC Docket”
or the Federal Register). However, posting the information on the website would
enhance public access.
       Recommendation H
       IM should post Federal Register notices, exemptive orders, and related
       policies and procedures on the Commission’s public website.
Employee Securities Companies
Employee Securities Companies (ESCs) are pools of funds contributed by a
company’s employees that the company then invests in securities. A Commission
rule provides ESCs with an automatic exemption that allows them to operate while
their applications are pending final determination by the Commission.
The ESC rule was adopted in 1941, and may need updating. Options include issuing
a new or modified rule, or eliminating the ESC automatic exemption rule.




IMExemptive Application Processing (Audit No. 408)            September 29, 2006
                                                                                          8

ESC applications are generally not reviewed timely. OICR had a backlog of about 35
ESC applications as of the end of 2005, which had been pending an average of
approximately 4 years. IM’s policy generally requires OICR to review exemptive
applications in the order received. However, OICR places a low priority on ESC
applications because they operated under automatic exemptions and are not
considered high-risk.
Nevertheless, the ESC backlog is significant because these applications have not
received the benefit of OICR’s review. Since the automatic exemption contemplates
subsequent review and action on an ESC application, OICR is considering, among
other things, assembling a task force to process the backlog of ESCs.

       Recommendation I
       IM should determine whether and how the ESC rule should be updated, and
       submit the appropriate recommendations to the Commission.

       Recommendation J
       IM should address the backlog of ESCs (e.g., by forming a task force).
Deregistration Applications
We reviewed data on a random sample of 50 out of 279 investment company
deregistration applications on Form N-8F for which orders were issued in FY 2005.
Twenty-seven of these companies did not appear to have submitted their semi-
annual reports on form N-SAR as required by Commission rules.
Investment companies must file form N-SAR to provide oversight information to IM
on investment companies’ investment advisers, investment portfolios, and financial
condition. The deregistration form includes a reminder to timely file a final form N-
SAR with the Commission.
OICR does not monitor whether applicants for deregistration continue to file N-
SARs, and the filing of these reports is not a condition for approval of their
deregistration. OICR feels that it is not cost effective to raise this issue with these
funds because the funds often lack resources to file the reports.
       Recommendation K
       IM should determine whether the requirement for semi-annual reports from
       funds applying for deregistration should be revised or eliminated. If so, IM
       should submit the appropriate recommendation to the Commission. If not,
       OICR should enforce the requirement.
Database
OICR maintains a database on exemptive applications and deregistrations. It has
updated the database over the last few years, but OICR is still not satisfied with it.
For example, the system does not provide workload numbers for the Chairman’s
Dashboard reports.
The Office of Information Technology (OIT) provides a Walk-In Development Center
(WIDC) to help Commission Offices and Divisions with their IT systems, including




IMExemptive Application Processing (Audit No. 408)               September 29, 2006
                                                                                      9

databases. It helped OICR to develop queries for its database, and might be able to
help OICR complete the update.
       Recommendation L
       OICR should complete the update of the Applications database, consulting
       with OIT and the WIDC if necessary.
Proposed Federal Register Notices
Applicants are required by Rule 0-2 to submit proposed Federal Register notices,
summarizing their request for relief, with their exemptive applications. However,
OICR staff do not generally use these proposed notices because of the amount of
revision required. Instead, OICR drafts its own Federal Register notices after
applicants revise their applications in response to comments.
Consequently, applicants spend their time and resources preparing and submitting
proposed Federal Register notices that OICR rarely uses. Also, the draft notices
increase paperwork for OICR and the Commission’s Office of Filings and
Information Services.
       Recommendation M
       IM should submit a recommendation to the Commission to eliminate the
       requirement that applicants submit proposed Federal Register notices with
       their exemptive applications.




IMExemptive Application Processing (Audit No. 408)            September 29, 2006
